QUALITY ASSURANCi: AND
                                                CISCIPLINARYACTION
         QR              INDEPENDENT CLINICAL
                                                     LABORAT ORIES




          SUW'Cls,




  1-


          ""ia

OFFICE OF INSPECTOR GENERAL
       OFFICE OF ANALYSIS AND INSPECTIONS


                                                            APRIL   1989
                     OFFICE OF INSPECTOR GENERAL


The mission of the Office of Inspector General (OIG) is to promote the efficiency,
effectiveness and integrity of programs in the United States Department of Health
and Human Servces (HHS). It does this by developingIIethodsto detect and
prevent fraud , waste and abuse. Created by statute in 1976 , the Inspector General
keeps both the Secretary and the Congress fully and currently informed about
programs or management problems and recommends corrective action. The OIG
performs its mission by conducting audits, investigations and inspections with
approximately 1   200 staff strategicallylocated around the country.

               OFFICE OFANAL YSIS AND INSPECTIONS

This report is produced by the Office of Analysis and Inspections (OAl), one of the
three major offices within the OIG. The other two are the Office of Audit and the
Office of Investigations. The OAl conducts inspections which are , tyically,

                            abuse.
short- term studies designed to determine program effectivehess efficiency and
vulnerability to fraud or

This study was conducted to provide the Health Care Financing Administration and
other componentS inHHS with information ontheadequacy of Federal and State
monitoring of independentclinicallaboratories and to     determine if timely and
appropriate action is taken to correct deficiencies.

The report was prepared under the direction of Kaye D. Kidwell , the Regional
Inspector General of Region IX , Office of Analysis and Inspections. Participating
this project were the following people:
                      Tom Purvs , National Project Leader
                    . Neil Merino, Lead Analyst
                      Leonard Czajka, Program Analyst
                      Deborah Harvey, Program Analyst
                      Cythia Lemesh , Program Analyst
                      Suzanne Murrin , Liaison, Headquarters
 QUALITY ASSURANCE AND DISCIPLINARY ACTION FOR

       INDEPENDENT CLINICAL LABORATORIES





                     Richard P. Kusserow
                     INSPECTOR GENERAL




OAI- 09- 88- 01050                         APRIL 1989

EXECUTIVE SUMMARY

PURPOSE

The purpose of this inspection was to determine (1) whether Federal and State
monitoring of Medicare-certified independent laboratories through proficiency
testing (PT), personnel standards and on-site inspections adequately identifies
marginal or substandard performance and (2) whether appropriate and timely
corrective and disciplinary actions are taken to address deficiencies.


BACKGROUND

Recently, Congress and the news media have raised questions about the accuracy of
laboratory tests. These concerns have focused on employee drug tests, the Pap
smear test for detecting cervcal cancer , blood serum tests for cholesterol levels and
tests to detect the presence of AlDS antibodies. As a result, Congress held a series
of hearings to gather testimony about the quality of laboratory testing and Federal
oversight.

In connection with his testimony at these hearings , the Inspector General publicly
released the draft of this report. Subsequently, Congress passed the Clinical
Laboratory Improvement Amendments (CLIA) of 1988. In accordance with our
recommendations , CLIA of 1988 requires that the Health Care Financing
Administration (HCFA) (1) issue uniform proficiency testing (PT) standards for all
laboratories , (2) work with the Centers for Disease Control to issue standards for
Pap testing and (3) issue regulations to implement intermediate sanctions for
substandard laboratories.

This report reflects data collection and analysis performed prior to the passage of
CLIA of 1988. For further information regarding CLIA of 1988 , see the
recommendation section of this report.


MAJOR FINDINGS

Few Laboratories Are Terminated
From 1985 through 1987, a total of 78 laboratories were terminated from Medicare
participation either fully or for 1 or more specialties. Inadequate quality control and
personnel deficiencies accounted for 53 full terminations and 3 specialty
terminations. Inadequate proficiency testing performance accounted for
22 specialty terminations.
Budget Restrictions Limit Staff Available to Monitor Laboratories
Because of budget restrictions , HCF A now requires States to perform on-site
                                                        Many laboratories are
inspections of only 68 percent of laboratories each year.
visited only once every 2 years. The HCF A does not target laboratories needing
additional monitoring for more frequent surveys.

Reporting Delays and Problems with the Survey Process Limit Effective Laboratory
Monitoring
States reported that effective oversight of laboratories is impeded by (1) delayed
receipt of PT results from testing organizations , (2) use of an outmoded survey form
and (3) Federal reluctance to take corrective action.

Lack of Uniform Proficiency Testing Standards Causes Inconsistent Corrective
Action
There are currently no national standards for scoring PT results on a State-by- State
basis. Consequently, minimum passing requirements vary, and this can lead to
inequities.

States Do Not Routinely Document Instances of Inappropriate Handling of
Proficiency Testing Specimens
Although almost 90 percent of the State survey staff interviewed believe that
laboratories give improper special handling to PT samples , only 27 States , or 53
percent, had 
evidence of this.

Some Terminated Laboratories Continue to Receive Medicare Payments
Three of 37 laboratories termnated from participation in Medicare in 1987
continued to receive Medicare payments without interrption.

State Surveyors Want Broader Sanction Authority
Almost two- thirds of the State respondents believe that current sanction authority is
inadequate for some situations and that fines and civil penalties could provide
increased clout and flexibilty.

Most States Do Not Have Special Regulations Covering AIDS or Pap Tests
Most States have no special regulation of Pap or AlDS tests. Current Federal
standards for monitoring laboratory performance for these test procedures are
inadequate.
RECOMMENDATIONS

The Health Care Financing Administration should:
          issue uniform PT standards for all laboratories regulated under Medicare
          and CLIA. The standards should include (1) national minimum passing
          scores for each specialty or subspecialty and (2) acceptable time frames
          for reporting PT results to States , the laboratories and HCF A;

       . work  with the Centers for Disease Control to develop and implement
          regulations with appropriate standards for Pap tests for cervical cancer;

          issue regulations implementing the intermediate sanctions mandated in
          Section 4064 (d) of the Omnbus Budget and Reconciliation Act of 1987;

          issue guidelines to insure that laboratories test PT specimens in a
           routine " manner , the same as for any clinical sample;

          improve the laboratory survey process by (1) revising the laboratory
          survey instrument and interpretive guidelines to reflect state-of-the-art
          laboratory operations, (2) streamlinig the process for corrective action
          and (3) developing procedures to target laboratories for inspection based
          on prior performance and

          develop necessary procedures to insure that carriers do not pay
          laboratories or other providers that have been terminated from Medicare.
As mentioned previously, CLIA of 1988 implemented the first three
recommendations. Although the law partially addressed the fourth and fifth
recommendations, full implementation is contingent upon further regulatory and
procedural changes. The final recommendation was neither included in our draft
report nor addressed by the legislation.




                                         iii
TABLE OF CONTENTS
                                                            Page

EXECUTIV SUMMAY

INTRODUCTION

FINDINGS

     Few Laboratories Are Terminated

     Budget Restrictions Limit Staff Available to Monitor
     Laboratories

     Lack of Uniform Proficiency Testing Standards Causes
     Inconsistent Corrective Action

     States Do Not Routinely Document Inappropriate
     Handling of Proficiency Testing Specimens

     Reporting Delays and Other Problems with the Survey
     Process Limit Effective Laboratory Monitoring

     State Surveyors Want to Keep Personnel Standards

     Some Terminated Laboratories Continue to Receive
     Medicare Payments

     State Surveyors Want Broader Sanction Authority

     Most States Do Not Have Special Regulations Covering
     AlDS or Pap Tests

RECOMMENDATIONS

APPENDIX: STATE REGULATION OF LAORATORIES
INTRODUCTION


This inspection on quality assurance and disciplinary action for independent clinical
laboratories is one of three related laboratory studies which the Office of Inspector
General (OIG) is conducting. The other two studies focus on quality assurance in
physician office laboratories and Medicare program costs associated with adopting a
national fee schedule for the payment of outpatient laboratory servces.

The objectives of this inspection were to determine (1) whether Federal and State
monitoring of Medicare-certified independent laboratories through proficiency
testing (PT), enforcement of personnel standards and on-site inspections adequately
identifies marginal or substandard performance and (2) whether appropriate and
timely corrective and disciplinary actions are taken to address deficiencies.


BACKGROUND

Clinical laboratories conduct diagnostic tests on blood, fluids and other substances
obtained from the human body. An independent laboratory is defined under current
regulations as one which is organizationally and financially separate from attending
or consulting physicians ' offices as well as hospitals. Many independent laboratories
are part of national or regional chains. Approximately 4 500   of the 12   000
federally-regulated clinical laboratories are classified as independent.

Extensive Federal regulation of laboratories began in 1966 with the passage of
Medicare and Medicaid and in 1967 with the Clinical Laboratories Improvement
Act (CLIA). The CLIA provisions cover all laboratories engaged in interstate
commerce. Responsibilty for regulating laboratories is shared between two
agencies within the Department of Health and Human Servces (HHS), the Health
Care Financing Administration (HCF A) and the Centers for Disease Control
(CDC). A memorandum of understanding between the two agencies makes HCF A
responsible for developing and enforcing standards, procedures and regulations
pertaining to laboratories under either CLIA or Medicare. The CDC is responsible
for providing scientific and technical expertise to HCF A in order to carry out these
responsibilties.

The College of American Pathology (CAP) operates a laboratory accreditation
program with a set of 14 standards and an annual or biennial inspection process.
Most CAP-accredited laboratories are in hospitals. Hospital laboratories accredited
by CAP are deemed acceptable for accreditation by the Joint Commssion on the
Accreditation of Healthcare Organizations (JCAHO).
Concerns About Laboratory Performance

Recently, Congress and the news media have raised questions about the accuracy of
laboratory tests. These concerns have focused on employee drug tests , the Pap test
for detecting cervcal cancer , blood serum tests for cholesterol levels and tests to
detect the presence of AlDS antibodies. As a result , Congress held a series of
hearings in the spring and summer of 1988 to gather testimony about the quality
laboratory testing and Federal oversight. Media and congressional interest coincide
with longstanding efforts within HHS to define the appropriate Federal regulatory
role for laboratory proficiency testing, personnel standards and on-site survey and
inspection activities.

A 1987 
   Wall Street Journal article alleged that Pap tests failed to reveal cervcal
cancer or cell abnormalities 20 to 40 percent of the time, " making the test one of the
most inaccurate of all clinical laboratory procedures. " A television news
documentary shown in the District of Columbia area in December 1987 publicized
the life threatening consequences of false negative Pap test readings. This news
program asserted that (1) untrained technologists are used in laboratories
(2) patients die because of incorrect test results and (3) cytotechnologists who do the
initial screening of Pap tests often must review two to three times the recommended
volume of cases per day.

Concern about false positive and false negative test results is also a highly publicized
factor in tests for the AIS antibody. This is so despite the fact that the incidence of
false AlDS tests results is quite low, especially in low risk populations. Researchers
at CDC estimate that if the 3. 8 millon people in the United States who marry each
year were tested for AIDS , there would be approximately 1 600 positive tests. About
400 of these would be false positives. In addition, about 100 of the 3. 8 millon tests
would be false negatives. Additional evidence from AIDS testing in the military
shows that the incidence of false positive test results is extremely small.


Previous Office of Inspector General Study

In 1981 ,   the OIG issued an audit report with a number of findings pertaining to PT
and enforcement of independent laboratory standards. The major findings included
the following:


             Actions to revoke a laboratory s license or to terminate Medicare
             participation for a specialty or subspecialty are subject to long delays or to
             reversals.

           . The HHS does not have an effective mechanism to remove substandard
             laboratories from the Medicare program.

             Regulators lack a single , acceptable set of national standards defining
             satisfactory PT performance.
Regulation and Oversight

Medicare regulations require clinical laboratories to meet seven conditions of
coverage:
       1. The laboratory conforms to all applicable State and local laws.
      2. The laboratory is under the direction of a qualified director.
       3. The laboratory is supervsed by qualified personnel.
       4. The laboratory performs only tests that it is qualified to perform
          and participates in a PT program.
       5. The laboratory has a sufficient number of properly qualified
          technical personnel for the volume and diversity of tests performed.
       6. The laboratory maintains records and facilities which are
         adequate and appropriate for the servces offered.
       7. The laboratory has satisfactory quality control procedures and practices.

Additional CLIA regulations, which include a requirement for Federal licensing,
apply to laboratories that receive specimens across State lines. The HCF A
supplements Medicare and CLI regulations through interpretive guidelines.

State regulation of laboratories varies considerably. Although approximately half
the States have licensing laws, only a few States carr out comprehensive quality
assurance programs. In half the States , the only standards are those required by
Federal law and regulation. Medicare regulations require laboratories to comply
with State laws. If Federal standards are more stringent, laboratories must meet
these. A comparison of State regulation of independent laboratories is contained in
the appendix.


Proficiency Testing

Medicare conditions of coverage require all independent laboratories to participate
successfully in a PT program in all applicable specialties and subspecialties for which
an approved PT program is available. Each PT program must be approved by the
Secretary of HHS. The HCF A guidelines require State surveyors to determine that
(a) the specimens are tested by employees who are regularly assigned to testing in
the applicable specialty, (b) the laboratory uses its routine methods and (c) the
laboratory actually tests the PT specimens in- house. Laboratories that do not meet
these specifications are not in compliance with Medicare s conditions of coverage.

Most independent laboratories participate in PT programs offered by their State
licensing and certification agency, CAP or the American Association of Bioanalysts.
Only a few States offer extensive PT through their State laboratories. Almost all
States provide syphils serology testing.
Specimens are mailed by the PT organization to each laboratory on a periodic basis
usually quarterly. The laboratory tests each specimen and returns the analysis for
grading. Laboratories must maintain records   showing the action taken for each
shipment of PT specimens. The PT organization scores the laboratory PT analysis
and sends the results to the laboratory and State agency. The State licensing and
certification agency determnes if the results are satisfactory, marginal or
unsatisfactory.

Unsuccessful PT scores in three consecutive quarters or three out of four quarters
should result in a specialty or subspecialty decertification recommendation from the
State to HCF A. Before taking action to terminate, however, HCF A staff must
document whether there are mitigating factors. A decertified laboratory may be
reinstated only after achieving satisfactory PT performance for two consecutive
quarters or being judged satisfactory in testing specimens onsite during two separate
visits by State surveyors.

In December 1987 , CDC issued a proposal for departmental consideration to
establish a uniform PT program for laboratories regulated under Medicare and
CLIA. The purpose of the proposed PT standards is " to identify laboratories whose
level of performance constitutes a threat to public health and not to provide
educational benefits or to establish an optimum in laboratory performance. " Private
sector PT organzations would continue to conduct the tests for laboratories in
accordance with the new CDC standards and test grading criteria. Laboratories
would need to maintain an 80 percent score in the specialty or subspecialty in order
to pass.


Enactment of the Clinical Laboratory Improvement Amendments of 1988
(Public Law 100-578)

The Inspector General publicly released the draft of this report when he testified
before Congress on pending legislation regarding laboratory regulation.
Subsequently, Congress passed and the President signed Public Law 100-578 , the
 Clinical Laboratory Improvement Amendments of 1988. " This law requires , among
other provisions , that the Secretary of HHS:
          establish uniform criteria for acceptable performance under aPT
          program;

          include in the standards a system for grading PT performance to
          determine whether a laboratory has performed acceptably for a particular
          quarter;

          require laboratories to agree to treat PT samples in the same manner as
          they treat laboratory examinations or other procedures in the ordinary
          course of business;
        . perform a program of on-site proficiency testing to insure that
           laboratories continue to meet their certificate requirements;

           establish national standards for quality assurance in cytology services that
           include eight specific criteria pertaining to the conduct of the tests , the
           proficiency of laboratory staff and the quality of test specimen
           preparation and

        . impose   intermediate sanctions, such as civil money penalties or directed
           plans of correction , in lieu of suspension , revocation and limitation
           actions when deemed appropriate.
These six provisions are responsive to most of the findings and recommendations
contained in the draft version of this report.


Current Issues Regarding Laboratory Regulations

Between the time the Inspector General released the draft of this report and
Congress passed CLIA of 1988 , HHS issued revisions to the clinical laboratory
regulations as a Notice of Proposed Rulemaking in the Federal Register. These
proposed regulations cover many of the issues most central to this study and to
CLIA of 1988 insofar as they:
           place more emphasis on proficiency testing and other outcome measures
           of performance;

           emphasize responsibilties and duties of personnel rather than formal
           credentialing requirements;

           call for incorporating national PT standards (including the CDC standards
           and test grading criteria) and

           establish comprehensive guidelines for Pap smear testing.
Since the proposed regulations are based on earlier law , they require revision before
they can be implemented under CLIA of 1988. The findings of this report reflect
research performed prior to issuance of the Notice of Proposed Rule Making and
passage of CLIA of 1988.


Comments on Draft Report

We requested professional organizations representing the laboratory industry and
other experts on laboratory performance to review the draft of this report. These
reviewers generally supported the recommendations. They also made several
suggestions for steps HHS could take to improve proficiency testing. The main
suggestions were that (1) HCFA establish requirements for laboratories to return
PT results to PT organizations within specified timeframes , (2) any timeframes for
getting results from PT organizations take into acount the tye of analysis required
and not necessarily be uniform across all disciplines , (3) HCFA institute a small
random sample of unannounced surveys in addition to focused surveys based on
performance screens or complaints and (4) HCF A require PT programs to use
combinations of specimen identification codes so that laboratory personnel could
not be sure if they have received the same specimens as other laboratories.
Laboratories would then be unable to compare their test results.

The CAP took exception to the proposal that HCF A prepare specific guidelines for
State agencies to insure that laboratories follow the standards for conducting
proficiency testing in a routine maner. The CAP agrees that laboratories handle
PT specimens differently than other test samples but alleges that " experience shows
that special manipulations of PT samples does not move laboratories from
 unacceptable to acceptable ' for regulatory purposes. We would advise caution in
developing specific standards for this area of proficiency testing. " The JCAHO also
does not believe that promulgation of standards will necessarily insure that
laboratories handle PT tests in a " routine " manner but suggests that selective on-site
observations of the processing of the PT samples could overcome laboratory efforts
to " beat   the system.




METHODOLOGY

The OIG staff surveyed all 50 State certification agencies to determne (1) the extent
of any problem with laboratory certification and proficiency testing and (2) whether
adequate follow-up activity is being carried out. We conducted intervews      with
approximately 50 experts to obtain their views on the relative effectiveness of quality
assurance programs. We obtained data from HCFA showing the number and types
of Federally-regulated laboratories, deficiencies cited and termation actions taken
in 1985 , 1986 and 1987. We compared the HCFA data with carrer records to see
the carriers had discontinued Medicare payments to terminated laboratories.
          ,"          , '




FINDINGS

Few Laboratories Are Terminated

From 1985 through 1987 , a total of 78 laboratories were terminated from Medicare
participation either fully or for 1 or more specialties. Of these , 53 were full
terminations based on recommendations from State licensing and certification
agencies. The primary reasons for full termination were inadequate quality control
lack of trained staff and violations of State licensure laws which were identified
during on-site surveys. In addition, 22 laboratories were terminated in one or more
specialties because of unsatisfactory proficiency testing performance , and 3 were
terminated in a single specialty for inadequate quality control or personnel
deficiencies.

               LABORATORIES TERMINATED 1985 THROUGH 1987

                                                          NUMBER TERMINATED

       Laboratories fully terminated for licensing,

       quality control and personnel deficiencies


       Laboratories terminated in a specialty for
       unsatisfactory PT tests



       Laboratories terminated in a specialty for
       quality control or personnel deficiencies

       SOURCE: HCFA Office of Survey and Certification



The major reason for the low number of Medicare terminations is that HCF A and
many State agencies view termination as the last resort , to be used only when efforts
to bring a laboratory into compliance have failed. Very often , States are able to
achieve compliance without recommending decertification. Either the laboratory
will come into compliance on its own , or it will voluntarily drop a test or specialty
area where unsatisfactory performance has been noted. In one region , where there
have been no decertifications for several years , the HCF A laboratory specialist
explained Laboratories will do anything to avoid decertification. They will
voluntarily stop performing a particular test or will contract with another laboratory
for it. Because of this voluntary action by the laboratories , there is seldom a need
for formal Federal compliance measures. " In another region , the HCFA laboratory
specialist explained The value of monitoring is to establish an ongoing dialogue
between the State and the laboratory rather than the action taken against a
laboratory if the laboratory fails.
         , "




At least 16 States indicated that they try to work with a qeficient laboratory to
improve performance prior to initiating adverse action. For failed proficiency
testing, many States will contact a laboratory directly to discuss solutions and warn of
the consequences for continued failure. The number of warning letters that States
send laboratories is many times higher than the number of termination referrals to
HCF A. For example , Ilinois has sent out 30 to 40 warning letters during the past
3 years, but has not recommended any terminations to HCF A. If a laboratory
unable to improve , many States seek voluntary withdrawal.

About half the States (24) have licensing laws and can take action independent
the Medicare conditions of coverage. These States indicated that they prefer taking
action under their own authority using the threat of losing State licensure as an
incentive for compliance. Many respondents noted that such State action is faster
and more effective because HCF A must exercise due process constraints beyond
that of many States. Others commented that HCF A sometimes will piggyback on
State licensure actions.


Budget Restrictions Limit Staff Available to Monitor Laboratories

In recent years, budgetary constraints have limted the number of State surveyors
available to monitor laboratories. Because of the reduced number of surveyors
HCF A modified its requirements so that States could intensify their inspections of
other providers such as nursing homes, which are considered to pose greater     safety
risks to patients. The HCF A now requires States to perform on-site inspections of
only 68 percent of laboratories each year. Nevertheless , about 10 States continue to
conduct on-site inspections of all laboratories at least once a year.

Data were obtained from the States showing the number of Medicare-certified
independent laboratories in each State and the number of State staff available to
perform Medicare-required survey and certification activities. The data show a wide
range in the number of laboratories that an individual State surveyor monitors. For
example , Idaho has 1 surveyor for every 6 Medicare-certified laboratories while
7 States have 1 surveyor for 60 or more laboratories. These figures are approximate
because some States assign health professionals other than the Medicare contract
staff to survey laboratories. In several States, staff survey physician offce
laboratories in addition to hospital and independent laboratories.

Because of limited staff resources , surveyors in six States suggested targeted
inspections based on prior survey results. Laboratories performing in a satisfactory
manner would not be visited as often as laboratories with multple deficiencies.
Current survey scheduling does not formally distinguish between laboratories that
perform in a satisfactory manner and those that do not. " What is needed " said one
surveyor is a system in- between visiting a laboratory about one day a year or every
other year and having a resident inspector at the laboratory.
                                                                , "




Lack of Uniform Proficiency Testing Standards Causes Inconsistent
Corrective Action

There are no national standards for scoring PT results by specialty or subspecialty.
A PT organization will judge performance relative to the true value for a PT
specimen or the best available estimate of the true value. In many cases, because
the PT specimen is a biological sample and biological samples can vary, there is not
a single value for that sample that can be called the " true " value. Determining true
values is also difficult because of wide variations in methodology, instrumentation
and standardization among clinical laboratories. In these cases, performance is
judged relative to the largest appropriate group of laboratories using comparable
methods.

Efforts are underway to introduce criteria for accuracy which are considered
clinically or medically relevant. The PT organization sets an acceptable range for
test results which differs for each specimen. There is currently no national standard
for what that range should be. Consequently, ranges vary from one testing
organization to another.

Each State establishes its own protocol for evaluating PT performance. Scoring
varies considerably from State to State. For example , some States consider 70
percent to be passing while other States require a passing score of 80 percent for the
same specialty or subspecialty. This could result in the termination of a laboratory
in one State , while a laboratory with the same level of performance in another State
would remain certified.

Nearly 65 percent of State respondents indicated that the lack of national standards
for PT grading is a problem. Nearly all laboratory and national association staff also
mentioned this issue as a problem. Several States also indicated that the actual
grading was made more difficult. As one State sureyor noted Grading is a big
problem. We don t have enough time to properly score and analyze PT tests. Our
standards should be higher than they are. At least national standards would help
raise State levels if they are too low. " In Regions VII and X, the States and the
HCF A regional staff negotiated common standards for PT scoring. In contrast , five
State respondents opposed national scoring standards , suggesting that States should
have flexibilty in grading and that national standards would not necessarily lead to
greater testing accuracy.



About 10 percent of the State respondents mentioned problems in comparing
laboratories that use different PT organizations which have different degrees of
complexity for the same tests. Non- State respondents , however , did not indicate this
was a prob1em.
                                                                         , " , "




States Do Not Routinely Document Inappropriate Handling of Profic;iency
Testing Specimens
About 90 percent of the State survey staff and other respondents believe that
laboratories process PT samples differently than samples sent routinely from
physician offices. Despite this widespread belief, only 27 States have collected
evidence. State survey staff indicated that laboratories have strong incentives to
make PT results as accurate as possible. As one State surveyor explained As long
as PT is used as a regulatory system, laboratories will have to handle PT samples
differently. Common sense tells us that a laboratory wil put its best foot forward.

Inappropriate handling of PT samples includes any handling which the laboratory
would not routinely carr out with that sample. Nonroutine handling could include
(1) having the laboratory s best analyst handle the specimen, (2) spending more time
and effort analyzing the sample , (3) reviewing the same sample two or more times
(4) discussing sample test results with workers in other laboratories or (5) sending
the sample to an outside laboratory for an independent reading.

A review of laboratories decertified over the past 3 years shows that no laboratories
were decertified because of handling a PT sample in a manner inconsistent with the
standards or the interpretive guidelines. One State surveyor explained I know it
happens, but I don t have evidence. I would fine the laboratories if I did have the
evidence.

States indicate that it is frequently difficult to identify special PT handling.
Nonroutine practices such as informal consultation about a PT sample or having the
 best" analyst run it are difficult to document. Sometimes documentation of special
handling is uncovered almost by accident. Several States reported that laboratories
occasionally will return the PT specimen analysis to the PT organiation with
records showing that an outside reference laboratory actually performed the testing.
One reference laboratory said that a request from a laboratory to test an obvious PT
sample would be refused. Another State reported that laboratories sometimes
submit results of PT tests requiring equipment which the laboratory does not
have-- clear evidence that an outside laboratory did the test for them. Test scores for
PT samples which do not evidence normal statistical variation offer further evidence
that a laboratory has given special attention to the sample.

Some laboratories destroy required records showing when a PT specimen is run
who ran it and how often it was run. One HCF A regional laboratory specialist
reported that biling records uncovered during a routine inspection showed that the
laboratory had sent a PT sample to an outside laboratory for testing. When a
follow-up visit was made to verify this, however , the records were missing.
According to the HCF A specialist , the laboratory " got the word to correct its records
to hide evidence of second opinions from surveyors.
                                                       , "   , "       , "




Reporting Delays and Problems with the Survey Process Limit Effective
Laboratory Monitoring


Although 80 percent of State respondents believe that the current survey and
certification process identifies problem laboratories , some problems were identified
that limit its effectiveness. Surveyors complained about (1) delays in receiving PT
results from the PT organizations , (2) delays in getting final action from HCF A on
deficiencies found in the survey process and (3) an outmoded laboratory survey form.

About 27 percent of States reported problems in timely submission of PT test results
from PT organizations. This limited State and laboratory abilty to take corrective
action. The CAP was identified most often as causing delays. Most States felt a
30- to 60- day turnaround time was reasonable. Sometimes test results did not arrive
until the next quarer , when the laboratory could be takng a new PT series. From
the laboratory s point of view , results that are 2 or 3 months old are of less value for
internal corrective action. According to some State and HCF A regional office staff
CAP has improved recently in transmitting timely test results to States.

When a State finds a deficiency as a result of an inspection , the laboratory is
supposed to be notified withi 10 days. The laboratory then has 19 days either to
rebut the deficiency notice or to submit a corrective action plan. Upon receipt of an
acceptable corrective action plan, the State submits the deficiency notice and the
plan to HCF A The laboratory usually has 45 days under the plan to correct the
deficiency.

Sometimes the State will make a follow-up visit to the laboratory to verify
compliance. Because of limited resources, the State may not follow-up until the next
scheduled inspection, which could be 1 to 2 years later. Submission of an acceptable
plan effectively removes the finding of a deficiency at least until the next on-site
inspection. As one State certification director noted In order to decertify a
laboratory, we have to move cautiously and carefully. After we cite a deficiency, the
back and forth can go on for years.

About one- quarter of the State respondents believe that final action by HCF A is
subject to excessive delays. They believe that HCF A is overly cautious in
decertifyng a laboratory. One State surveyor commented HCF A usually sits on
cases we have referred to them or they tell us to go back and resurvey the laboratory.
Many of our cases just die on the vine. " Another State surveyor said HCF A gives
labs a lot more opportunities than we would. Their attitude seems to be to let the
labs get back into compliance rather than to decertify them.

About 50 percent of the respondents said the survey process should be revised.
They indicated that the survey instrument does not reflect advances in technology,
particularly concerning the need to monitor automated equipment. The survey
instrument was developed when most procedures were stil performed manually.
The form contains many obsolete items and excludes many items that should be
inspected. For example , the form requires the laboratory to perform " linearity
checks " to determine an analyzer s range of accuracy. Several brands of analyzers
which are now on the market , however, do not require such checks. Any revision in
the survey process needs to be flexible enough to take into account rapidly evolving
laboratory technology.



About 10 percent of respondents mentioned that the survey process was overly
concerned with paperwork rather than with substantive review. " Paperwork reviews
can t tell you everyhing, and day-to- day practices can t be reviewed on an annual
basis " said one State laboratory surveyor. These surveyors feel that many of the
deficiencies cited during on-site inspections are minor problems or "paper
compliance issues. " These include such issues as lighting or certain fire and safety
codes. At least one regional quality control officer for a laboratory chain said
however, that the State Medicare surveyors were more flexible in interpreting survey
requirements Jhan some professional certification organization representatives.


State Surveyors Want To Keep Personnel Standards

Personnel standards are one of the most controversial areas in Federal regulation of
laboratories. Current regulations mandate credentials for every category of
laboratory personnel from director to technician. The debate centers upon whether
these Federal standards should be relaxed in favor of reliance on outcome
measurement. Almost 75 percent of the State agency respondents believe that the
Medicare conditions of coverage , which have detailed personnel standards, are
appropriate for independent laboratories. Alost 50 percent of the respondents
singled out the importance of maintaining the current personnel standards. Only six
State respondents suggested that personnel standards are unrealistic or overly rigid
and should be removed. Most of the laboratory professional associations want to
maintain personnel standards which mandate credentialing for their specialty.


Some Terminated Laboratories Continue to Receive Medicare Payments

During 1987 ,   HCF A terminated 21 independent laboratories from Medicare
participation for deficiencies in quality control or personnel standards.
additional 15 laboratories were terminated in a specialty because they failed
proficiency testing. One laboratory was terminated in a specialty due to quality
control problems.

To determine whether the terminations were carried out , OIG staff obtained
laboratory enrollment information from Medicare carriers servcing each of the
37 laboratories. The carrier data indicated that no termination action had been
taken on three (8 percent) of the laboratories. There is no indication whether
HCF A sent the carriers termination instructions in each instance. Ordinarily,
HCF A sends the carriers a copy of the termination letter sent to the laboratory. The
carriers must decide from the letter what action to take , whether to stop payment for
all laboratory Medicare services or for one or more specialties. Regional HCF A
staff stated that the letter can be confusing to carrier staff and should be replaced by
a simple form. They also stated that they usually do not follow up with carriers when
laboratory termination notices are issued and normally do not review carrier action
on termnation notices when they evaluate carrier performance.


State Surveyors Want Broader Sanction Authority

Under current regulations, the major sanction authority for Medicare laboratories is
decertification leading to termnation from participation. Fines , civil money
penalties or other intermediate sanctions have not been used as remedies for
laboratory deficiencies.

N early two-thirds of the State respondents believe that current sanction authority is
inadequate. Although fines were mentioned most often , there was no consensus of
what should be included in an intermediate sanction program. Most felt that
intermediate sanctions would be effective only if they could be imposed without the
delays inherent in decertifyg a laboratory.

States that license laboratories can revoke licenses for cause. Five states have the
authority to impose fines. Surveyors from at least a third of the States suggested that
a program of fines would provide increased flexibilty to impose sanctions for
offenses which do not warrant termination of a specialty or outright closure of a
facility. For example, Florida has authority to impose fines up to a maxmum of
$500 per day for violations of licensing laws. First offense fines are tyically $250
per day and second offenses $350. A New Jersey surveyor argued that fines are
appropriate and effective, " We can impose fines up to $250 per day. I'd like to see a
faster appeals process, but so far we have gotten a lot of cooperation and have won
all our cases.

The Omnbus Budget Reconciliation Act of 1987 (OBRA) mandated HCFA to
develop regulations for intermediate sanctions that could be used with laboratories
and other categories of providers " in lieu of termnation. " Regulations to implement
these provisions are stil under development. The CLIA 1988 also contains a
provision regarding intermediate sanctions , as indicated on page 5.



Most States Do Not Have Special Regulations Covering AIDS or Pap Smear
Tests
Because of concerns raised about the accuracy of tests for the AIDS antibody or for
Pap smear tests for cervcal cancer , we asked whether any special r egulations or
oversight were given to these two tests. Only 20 percent of the States indicated any
special oversight for AlDS tests and only 10 percent for Pap smears.
                                    , "




AIDS Testing


Both Medicare and CLIA require that a laboratory enroll in proficiency testing
when an approved program is available. Laboratories not subject to Medicare or
CLIA regulations or to special State requirements receive no oversight. The CDC
testing program is a research activity called the Model Performance Evaluation
Program. It is designed to provide answers to questions about the effect of factors
such as personnel , methodology and quality assurance on test results. It is not
designed to evaluate individual laboratory performance. Both CDC and CAP offer
proficiency testing for the AIDS antibody test.

Twenty-four States have no regulations covering AlDS antibody testing, although
legislation is pending in several. Much of that legislation deals with confidentiality
of test results rather than with testing 
 per se. Three States require that their public
health laboratory or the testing laboratory perform a confirmatory test on all
positives before reporting them. Three States monitor AIDS testing and send
advisories to laboratories. Two States require special licensure. New Jersey, for
example, requires special licensure as a precondition for AlDS testing. As part of
the application for licensure , the laboratory must submit a testing protocol for State
approval. The State agency conducts on-site proficiency testing before the license
can be granted. The laboratory also must adhere to strict rules of confidentiality.
New York conducts all AIS antibody testing in its own laboratories , which must
have a PT score of 100 percent. By comparison, Oregon , which also requires labs to
enroll in either CDC or CAP proficiency testing, accepts a 75 percent passing score.

Almost all professional group respondents and other experts felt that no special
emphasis need be given to standards for AIDS testing beyond current PT
requirements. According to CAP testing for antibody to HI is among the most
accurate tests available today.


Pap Tests


The Pap test is the microscopic evaluation of cells obtained from the uterine cerv
stained according to the method originally devised by Dr. George Papanicolaou.
Cyopathologist and cyotechnologist respondents identified several factors that lead
to Pap test errors. The most important of these are:
           inadequate collection of the Pap smear sample by the physician and
           failure of the laboratory to reject these samples and request new ones;

           excessive cyotechnologist workloads involving as many as 200 to 300
           slides per day rather than the 80 per day as recommended by all national
           organizations of cytopathologists and cyotechnologists. This problem is
           exacerbated by cyotechnologist salaries which frequently are based on a
           per case rate. This causes some cyotechnologists to work a second shift
          in a different laboratory and thus to exceed the recommended limit on
          slides reviewed;

          errors in the initial microscopic reading and laboratory failure to impose
          an adequate rescreening program;

          cyotechnologists who review the Pap smears at home , away from
          supervision of the laboratory;

          lack of adequate internal quality assurance and external proficiency
          testing programs for cyotechnologists and cyopathologists;

          physician failure to provide the laboratory with adequate diagnostic and
          clinical inormation about the patient, which can lead to an inaccurate test
          result and

          failure on the part of the physician to communicate test results to the
          patient.
New York has the most extensive regulations for Pap tests. These include provision
for on-site proficiency testing. Laboratories are rated on 10 smears , some positive
and some negative. State officials hand carr the slides to the laboratory and test
each cyotechnologist individually. Laboratories are given four chances to pass.
From 1978 to 1984 , only 10 laboratories out of approximately 1 000 failed 3 tests
and only 1 of those 10 failed a fourth time.

The CDC is assisting HCF A in developing standards and maintainig quality
assurance of Pap smear test performance.
RECOMMENDATIONS


RECOMMENDATIONS IMPLEMENTED THROUGH CLIA OF 1988
The following three recommendations were implemented by CLIA of 1988. To fully
accomplish these recommendations , HCF A need only implement the regulatory and
procedural changes mandated by the law.

RECOMMENDATION #l-- UNIFORM PROFICIENCY TESTING STANDARS

FINDING: Lack of national criteria for scoring PT results can lead to inequitable
interpretations of laboratory performance and significant delays in corrective action.

RECOMMENDATION: Uniform PT standards developed by CDC for all
laboratories regulated under Medicare and CLIA should be approved and
implemented. The standards should include (1) national minium passing scores
for each specialty or subspecialty, (2) timeframes for reporting test results from PT
organiations to States and laboratories, (3) consistency among PT organizations
and (4) timeframes for States to take necessary corrective action such as warnings or
decertification recommendations to HCF

IMPACT: Uniform national standards for proficiency testing would lead to more
equitable and timely corrective action for all laboratory deficiencies.

CONGRESSIONAL ACTION: The CLIA of 1988 mandates that HHS establish
uniform criteria for acceptable performance under a proficiency testing program.

RECOMMENDATION #2-- MONITORING PAP SMEAR AND AIDS TESTING

FINDING: Most States have no special regulation of Pap or AIDS tests. Current
Federal standards for monitoring laboratory performance for these two test
procedures are inadequate.

RECOMMENDATION: The CDC and HCFA should issue guidelines for cytology
and Pap tests covering (a) appropriate workload guidelines , (b) standards for the
acceptabilty of specimens submitted to laboratories , (c) standards for patient
information required to be submitted with specimens and (d) mandatory proficiency
testing.

IMPACT: Issuance of standards to insure the greatest feasible accuracy of AIDS
and Pap smear testing would alleviate much of the current concern about the
performance of laboratories.
CONGRESSIONAL ACTION: The CLIA of 1988              establishes national standards for
quality assurance in cytology servces that must include eight specific criteria in areas
such as the conduct of the tests, the number of tests to be reviewed by any individual
in a 24- hour period, when rescreening of specimens is necessary, the proficiency of
laboratory staff and the quality of test specimen preparation.

RECOMMENDATION #3-- INTERMEDIATE SANCTIONS

FINDING: Almost two-thirds of State surveyors believed that an increased range of
sanction authority, which could be imposed without undue delays , would provide
increased clout and flexibilty.

RECOMMENDATION: The HCFA should complete and issue regulations
implementing the intermediate sanctions provided for in Section 4064 (d) of OBRA
1987 which amends Section 1846 (a) and (b) of the Social Security Act.

IMPACT: Implementation of this authority would give States a range of sanctions to
use in lieu of recommending termination.

CONGRESSIONAL ACTION: The CLIA of 1988 imposes a new set of
intermediate sanctions , such as civi money penalties or directed plan of correction
in lieu of suspension, revocation and limtation actions when deemed appropriate.

RECOMMENDATIONS ADDRESSED BY CLIA OF 1988 THAT STIL
REQ           FURTHER ACTION




The followig two   recommendations were addressed , in part , by CLIA of 1988. To
fully accomplish these recommendations , however , HCF A will need to implement
regulatory and procedural changes beyond those required by CLIA of 1988.

RECOMMENDATION #4-- STANDARS OF CONDUCT FOR PROFICIENCY
TESTING

FINDING: Although most State surveyors believe that many laboratories do not
perform proficiency tests in a routine manner , there is little documentation to
support this belief.

RECOMMENDATION: The HCFA should approve and implement explicit
standards of conduct for laboratories participating in PT. In addition, HCF A should
(1) prepare specific guidelines for State agencies to insure that laboratories follow
the standards for conducting proficiency tests in a " routine " manner the same as for
any clinical sample , (2) instruct States to document instances where prohibited
processing of PT samples takes place and (3) instruct States to conduct on-site
observation of laboratories processing PT samples on a selective basis.
IMPACT:            Close monitoring of laboratory participation in           with appropriate
corrective action , would reduce instances of inappropriate handling of PT
specimens.

CONGRESSIONAL ACTION: The CLIA of 1988 requires that (1) a laboratory
agree to treat PT samples " in the same manner as it treats material derived from the
human body referred to it for laboratory examinations or other procedures in the
ordinary course of its business " and (2) the Secretary "perform a program of on-site
proficiency testing to insure that laboratories continue to meet their certificate
requirements. "

HCFA RESPONSE: 
       The HCFA states that the proposed regulations contain
explicit standards for conducting PT. Additionally, HCF A is considering a
demonstration project to evaluate the feasibilty of on-site PT.

RECOMMENDATION #5-- LAORATORY SURVEY PROCESS

FINDING:     Lack of targeting, coupled with limited staff, results in insuffcient
attention to laboratories with deficiencies. Portions of the current survey instrument
are obsolete because they do not reflect advances in technology.

RECOMMENDATION:                           The HCFA should (a) revise the laboratory survey
instrument and the interpretive guidelines to reflect state-of-the-art laboratory
practices, (b) streamline the process for insuring corrective action following a
finding of deficiency and (c) develop procedures to target laboratories for inspection
based on prior performance so that all laboratories with deficiencies or unusual
problems could be inspected more frequently and laboratories without problems
less frequently.

IMPACT:            A survey process which allows for targeting and adequate timeframes for
corrective action will insure adequate monitoring even with increased workloads and
resource limitations.

CONGRESSIONAL ACTION: The CLIA of 1988 states that the Secretary may, on
an announced or unannounced basis, enter and inspect laboratories which have been
issued a required certificate and have access to all facilities, equipment , materials
records and information determined to have a bearing on whether the laboratory is
being operated in accordance with national quality standards.

HCFA RESPONSE: 
                   The HCFA concurs with this recommendation.
NEW RECOMMENDATION
The following recommendation was not included in the draft report. Because the
finding is not addressed by CLIA of 1988 , we have decided to include this
recommendation in the final report.

RECOMMENDATION #6-- REIMBURSEMENT TO TERMINATED
LAORATORIES

FINDING:     Carriers continue to reimburse some laboratories termnated from
participation in Medicare. The HCFA performed no follow-up or verification with
the carriers to determine if payment had been stopped.

RECOMMENDATION:                The HCFA should develop procedures to verify carrier
action on laboratories terminated from Medicare. Additionally, HCF A should
modify the way it notifies carriers of termnations. A specialty deletion check-off
sheet to the carrier would be appropriate.

IMPACT:           Clear instructions and follow-up with carriers by HCFA would eliminate
or greatly reduce overpayments to termnated laboratories.
                                                                       APPENDIX


                      STATE REGULATION OF LABORATORIES


The following matrix identifies States that (a) license independent laboratories
(IL), (b) regulate quality control (QC) and laboratory personnel (PERS) and (c)
require inspections (INSP).




                                                  PERS       INSP

      ALABAMA

      ALASKA

      ARIZONA

      ARKANSAS

      CALIFORNIA

      COLORADO

      CONNECTICUT

      DELAWARE

      FLORIDA

      GEORGIA

      HAWAII

      IDAHO

      ILLINOIS

      INDIANA

      IOWA

      KANSAS

      KENTUCKY

      LOUISIANA

      MAINE

      MARYLAND

      MASSACHUSETTS

      MICHIGAN

      MINNESOTA

      MISSISSIPPI

      MISSOURI

      MONTANA

      NEBRASKA

      NEVADA

      NEW HAMPSHIRE

      NEW JERSEY
      NEW MEXICO

      NEW YORK
      NORTH CAROLINA

      NORTH DAKOTA

      OHIO

      OKLAHOMA

      OREGON

      PENNSYLVANIA

      RHODE ISLAND
      SOUTH CAROLINA

      SOUTH DAKOTA

      TENNESSEE

      TEXS

      UTAH

      VERMONT

      VIRGINIA

      WASHINGTON

      WEST VIRGINIA
      WISCONSIN

      WYOMING

